      Department of Homeland Security





             Survey of Hazard Mitigation Planning





OIG-12-109                                      August 2012

                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 Iwww.oig.dhs.gov



                               August 9, 2012


MEMORANDUM FOR:              David l. Miller
                             Associate Administrator, Federal Insurance and Mitigation
                             Administration
                             Federal Emerge ¥_Manag;e.~~ Agency
                                                "---I/,I f/~-
FROM:                        D. Michael Beard     ·               /'/L--
                             Assistant Inspe  r General
                             Office of Emergency Management Oversight

SUBJECT:                     Survey of Hazard Mitigation Planning

Attached for your action is our final report, Survey of Hazard Mitigation Planning. We
incorporated the formal comments from the Federal Emergency Management Agency in
the final report.

The report contains two recommendations aimed at improving the Hazard Mitigation
Planning program. Your office concurred with both of the recommendations. As
prescribed by the Department of Homeland Security Directive 077~1, Follow~Up and
Resolutions for the Office of Inspector General Report Recommendations, within
90 days of the date of this memorandum" please provide our office with a written
                                     "
response that includes your (1) agreement  or disagreement, (2) corrective action plan,
and (3) target completion date for each recommendation. Also, please include
responsible parties and any other supporting documentation necessary to inform us
about the current status of the recommendation. Until your response is received and
evaluated, the recommendations will be considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Please call me with any questions, or your staff may contact John Kelly, Acting Deputy
Assistant Inspector General, Office of Emergency Management Oversight, at
(202) 254-4100.

Attachment
                                         OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


   Table of Contents
   Executive Summary............................................................................................................. 1 


   Background ........................................................................................................................ 2 


   Results of Review ................................................................................................................ 6 


              Plan Participation .................................................................................................... 6 


              Plan Review Process................................................................................................ 6


              Project Implementation ......................................................................................... 7 


              Conclusion .............................................................................................................. 9 


              Recommendations ............................................................................................... 10 


              Management Comments and OIG Analysis ......................................................... 10 


   Appendixes
              Appendix A:          Objectives, Scope, and Methodology ............................................ 11 

              Appendix B:          Management Comments to the Draft Report ............................... 12 

              Appendix C:          Major Contributors to This Report ................................................ 14 

              Appendix D:          Report Distribution ........................................................................ 15 


   Abbreviations
              DHS                   Department of Homeland Security
              CFR                   Code of Federal Regulations
              FEMA                  Federal Emergency Management Agency
              FMA                   Flood Mitigation Assistance
              HMGP                  Hazard Mitigation Grant Program
              OIG                   Office of Inspector General
              PDM                   Pre-disaster Mitigation




www.oig.dhs.gov                                                                                                                OIG-12-109
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


Executive Summary
The Federal Emergency Management Agency (FEMA) has made progress in the hazard
mitigation planning program since the passage of the Disaster Mitigation Act of 2000, as
amended. The program is designed to encourage State, tribal, and local jurisdictions to
(1) identify the natural hazards that affect them and (2) implement projects that will reduce
losses from disasters, including development of land use and building code regulations. A State
mitigation plan is required as a condition for receiving certain types of nonemergency disaster
assistance, including funding for mitigation projects.

The program is voluntary, but all 50 States plus the District of Columbia and several territories
have participated since its inception, and more than 26,000 jurisdictions have developed
mitigation plans. Communities that participate account for about 70 percent of the Nation’s
population. Despite the program’s relative success, some communities have been reluctant to
participate, particularly those in less populated areas that have not experienced recent
disasters. FEMA is developing a system to monitor State, tribal, and local participation and to
track planned or implemented mitigation projects.

FEMA receives high marks from mitigation grantees who rely on the agency for program
guidance, technical assistance, and training that is made available to State, tribal, and local
communities, as well as their contractors. A common concern among State grantees was the
“too-frequent” plan renewal process.

We conducted this survey to evaluate the program’s efficiency and effectiveness, and to
determine whether a more comprehensive audit was needed. Although we determined that
further audit work on FEMA’s hazard mitigation planning program is not warranted at this time,
FEMA needs to implement a better system to track participants’ progress, and continue
ongoing efforts to address States’ concerns regarding plan reporting requirements. We are
making two recommendations to assist FEMA in its management and oversight function. In the
future, we will follow up on FEMA’s progress as the program continues to develop.




www.oig.dhs.gov                                 1                                       OIG-12-109
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


   Background
   Hazard mitigation is defined as any sustained action taken to reduce or eliminate the
   long-term risk to human life and property from hazards. It is intended to break the cycle
   of disaster damage, reconstruction, and repeated damage. Mitigation activities may be
   implemented before, during, or after an incident. However, it has been demonstrated
   that hazard mitigation is most effective when based on an inclusive, long-term plan that
   is developed before a disaster occurs. Two recent cost-benefit analyses found that
   every $1 spent on mitigation saved society $3 to $4.1

   Mitigation planning is a voluntary process through which communities assess risks and
   identify actions to reduce vulnerability through hazard mitigation. The jurisdictional
   plans prepared by State, tribal, and local governments demonstrate their commitment
   and serve as a guide for decision makers as they commit resources for mitigation
   projects that reduce or eliminate long-term risk to people and property from hazards.

   In keeping with the intent of Congress, the mitigation planning program is designed to
   encourage jurisdictions to (1) identify the natural hazards that affect them and
   (2) implement projects in order to reduce losses from disasters, including development
   of land use and building code regulations. States must have an approved mitigation
   plan as a condition of receiving certain nonemergency assistance and mitigation grants.
   FEMA promotes planning, provides assistance and guidance, and reviews and approves
   plans.

   Section 322 of the Robert T. Stafford Disaster Relief and Emergency Assistance Act
   (42 U.S.C. 5121 et seq.), as amended by the Disaster Mitigation Act of 2000 (P.L. 106-390),
   provides for States, tribes, and local governments to undertake a risk-based approach to
   reducing the exposure to loss by natural hazards through mitigation planning.
   Implementing rules were codified in Title 44, Part 201 of the Code of Federal
   Regulations (CFR).

   Following the issuance of the CFR regulations, the first round of State and local
   mitigation plans were approved in 2004. Since the program began, FEMA has reviewed,
   critiqued, and approved more than 5,000 mitigation plans, and overseen more than
   $5.2 billion in hazard mitigation grants.


   1
     Congress of the United States, Congressional Budget Office, Potential Cost Savings from the Pre-Disaster
   Mitigation Program (Washington, DC, 2007); and National Institute of Building Sciences, The Multihazard
   Mitigation Council, Natural Hazard Mitigation Saves: An Independent Study to Assess the Future Savings
   from Mitigation Activities (Washington, DC, 2005).


www.oig.dhs.gov                                        2                                              OIG-12-109
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   This survey concentrated on the following three hazard mitigation grant programs that
   include a planning function.

   Mitigation Planning Grants

   •	 Hazard Mitigation Grant Program (HMGP): Provides grants to State, tribal, and local
      governments, and certain nonprofits, to implement mitigation measures after a
      major disaster declaration. The Disaster Mitigation Act of 2000, as amended,
      authorizes up to 7 percent of available HMGP funds for planning purposes. Of the
      more than $1.3 billion awarded under HMGP from 2007 through 2011, $48.9 million
      was awarded for mitigation planning. These funds accounted for the largest
      segment of mitigation planning grants out of all of the hazard mitigation assistance
      programs.

   •	 Pre-disaster Mitigation (PDM) Grant: Provides funding to States, territories, tribal
      governments, communities, and universities for hazard mitigation planning and the
      implementation of mitigation projects prior to a disaster event. PDM grants
      exceeded $270 million over the past 5 years, of which $52.2 million was for
      mitigation plans.

   •	 Flood Mitigation Assistance (FMA): Provides funds to help States and communities
      implement measures that reduce or eliminate the long-term risk of flood damage to
      buildings, manufactured homes, and other structures insured under the National
      Flood Insurance Program. FMA provides annual grant funds for flood mitigation
      planning, and exceeded $120 million over the past 5 years, of which $2.75 million
      was for mitigation plans.

   FEMA provides grants to States, which in turn provide subgrants to local governments
   and communities. The State selects and prioritizes subgrant applications and submits
   them to FEMA for funding consideration. Figure 1 shows the total amounts spent for
   the grant programs from 2007 through 2011.




www.oig.dhs.gov                               3	                                     OIG-12-109
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


                               Figure 1. Mitigation Funding by Grant 



                      Hazard Mitigation Grants 2007-2011
                                               $128,672,145

                                                   FMA
                              $272,583,194          7%
                                             PDM
                                             16%




                                                              HMGP   $1,345,209,907
                                                               77%




    Source: Department of Homeland Security (DHS) Office of Inspector General (OIG), based on FEMA data.

   Plan Elements

   CFR Part 201, Title 44 is specific on the elements that must be included in plans
   submitted by States, tribes, and local jurisdictions. Elements for a standard State
   mitigation plan include a risk assessment that identifies hazards and risks, including
   information on previous occurrences, and the probability of future hazard events in the
   jurisdictional area. Plans contain a mitigation strategy that provides a blueprint for
   reducing losses and includes (1) a description of proposed projects to reduce future
   losses and (2) a benefit-cost analysis to demonstrate the cost-effectiveness of the
   projects; and an evaluation of pertinent laws and regulations, as well as development in
   hazard-prone areas. Plans also include a description of the planning process and a
   schedule for monitoring, evaluating, and updating the plan.

   A State may submit an enhanced mitigation plan that, in addition to the above-cited
   elements, demonstrates integration with other State and/or regional planning
   initiatives, such as economic and land development and emergency management.
   States with an enhanced plan are eligible for increased mitigation funds, but must
   demonstrate the capability to implement and assess mitigation projects and achieve
   mitigation goals. Furthermore, States with an enhanced plan must display a
   commitment to supporting local jurisdictions by providing workshops and training.




www.oig.dhs.gov                                        4                                         OIG-12-109
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Mitigation Projects

   A mitigation project is a specific undertaking by a community to reduce or eliminate
   long-term risk to people and property from hazards. Eligible projects must provide a
   long-term solution to a problem—for example, elevating a home to reduce the risk of
   flood damages as opposed to buying sandbags and pumps to fight the flood. In
   addition, a project’s potential savings must be more than the cost of implementing the
   project. Funds may be used to protect either public or private property or to purchase
   property that has been subjected to, or is in danger of, repetitive damage. Examples of
   projects are listed under Project Implementation.

   Mitigation Funding

   Mitigation grants are separated into three cost categories:

   • Project costs – used to implement the approved mitigation projects. 

   • Planning costs – used to fund the cost of plan preparation. 

   • Management costs – used to offset recipient’s administrative costs. 

   

   Figure 2 shows the total amounts spent for mitigation funding from 2007 through 2011. 

   

                       Figure 2. Mitigation Funding by Cost Category

                           Total Amount Spent for Planning,
                          Projects, and Management 2007-2011
                                        Management     Planning
                                           6%             6%




                                            Projects
                                              88%




                               Source: DHS OIG, based on FEMA data. 





www.oig.dhs.gov                                    5                                OIG-12-109

                                OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Results of Review

           Plan Participation

           Although hazard mitigation planning is voluntary, participation in the program
           has been relatively widespread. Presently all 50 States, the District of Columbia,
           and five of the seven U.S. Island Territories have approved plans. More than
           19,000 jurisdictions are currently represented by plans, covering approximately
           70 percent of the Nation’s population. State plans are scheduled to be renewed
           and resubmitted every 3 years, local plans every 5 years. All plans must be
           approved by FEMA.

           Notwithstanding the widespread program participation, some local jurisdictions
           do not participate. According to the State hazard mitigation officers we
           interviewed, common reasons for jurisdictions not participating are (1) lack of
           resources, (2) lack of a perceived threat in areas that have not had a declared
           disaster recently, and (3) an aversion to government programs.

           The current economic environment has strained local jurisdictions’ budgets and
           shrunk staffing levels to the point that program participation is a hardship, even
           with the Federal Government contributing 75 percent of the cost. In locations
           that are not prone to flooding, frequent earthquakes, or hurricanes, and that do
           not have a history of recent disasters, local jurisdictions often decline
           participation, especially if their resources are constrained. A number of
           jurisdictions, typically in rural, sparsely populated areas, display a tradition of
           self-sufficiency and an aversion to participation in voluntary government
           programs.

           Plan Review Process

           FEMA must complete its review and approval of a plan within 45 days of the time
           the FEMA Regional Office receives the plan. The State or governing body of the
           jurisdiction must formally adopt the plan before submitting it to FEMA.
           However, FEMA encourages States and local jurisdictions to submit a final draft
           of the plan for review before adoption so that FEMA can determine if the plan is
           “approvable pending adoption” or identify deficiencies that need to be
           addressed before the plan is formally adopted. States are also encouraged to
           review plans following a disaster to determine if revisions are necessary.




www.oig.dhs.gov                                 6                                       OIG-12-109
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           The CFR requires localities to update plans once every 5 years, and States to
           update their plans once every 3 years. This time difference in submitting plans
           was the most common issue we heard from the State mitigation officers. They
           consider the “too-frequent” 3-year update cycle to be burdensome,
           unnecessary, and impractical for the States.

           We were told that usually there are not enough changes in a 3-year period to
           warrant a new plan. State officials report that they are wasting time and money,
           especially because many of them perform annual plan maintenance updates that
           would minimize the frequency of a new plan. They would prefer a 5-year
           reporting cycle for State plans, particularly since the local plans are linked to the
           State plan and it would make sense to have both on the same reporting cycle.

           During a recent DHS regulatory review, FEMA proposed a rule change that would
           lengthen the States’ mitigation plan reporting cycle to 5 years. We commend
           FEMA on its responsiveness to State and local concerns and suggest that it
           continue promoting the proposed rule change.

           Project Implementation

           A mitigation project is a specific undertaking to reduce or eliminate long-term
           risk to people and property from hazards. Eligible projects must provide a long-
           term solution to a problem; for example, elevating a structure to reduce the
           likelihood of flooding could be eligible, whereas buying sandbags and pumps to
           fight the flood would not be eligible. In addition, a project’s potential savings
           must be more than the cost of implementing the project. Funds may be used to
           protect either public or private property or to purchase property that has been
           subjected to, or is in danger of, repetitive damage. The following are examples
           of eligible projects:

                  •   Property acquisition and structure demolition
                  •   Property acquisition and structure relocation
                  •   Structure elevation
                  •   Flood reduction projects
                  •   Soil stabilization
                  •   Wildfire mitigation
                  •   Safe-room construction
                  •   Infrastructure retrofit
                  •   Retrofitting of existing buildings and facilities
                  •   Floodproofing of structures


www.oig.dhs.gov                                      7                                   OIG-12-109
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security



           Figures 3 through 5 illustrate mitigation projects.

           Figure 3. A home in a flood-prone area has been elevated.




           Source: FEMA Photo Library.

           Figure 4. “Hurricane clips” help anchor roofs to prevent detachment due to severe
           wind.




           Source: FEMA Photo Library.




www.oig.dhs.gov                                  8                                       OIG-12-109
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           Figure 5. Structures have been acquired and removed from this flooded former
           residential area.




           Source: FEMA Photo Library.

           Potential projects are identified in the local mitigation plans, selected by the
           State, and forwarded to FEMA for an eligibility review. At minimum, approved
           projects must conform to the State plan, address an identified problem, meet
           environmental requirements, and be cost-effective.

           At the time of our fieldwork, FEMA did not track mitigation projects, but was
           developing a tool to track mitigation actions identified and implemented by
           grant recipients. The tool is expected to be in use sometime in 2012. We
           encourage FEMA to continue with its plans to implement a mitigation project
           tracking tool.

           Conclusion

           We conducted this survey to evaluate FEMA’s hazard mitigation planning
           program’s efficiency and effectiveness, and to determine whether a more
           comprehensive audit was needed. Based on our survey, we determined that
           further audit work is not warranted at this time. Nonetheless, FEMA needs to
           implement a better system to track participants’ progress, and continue ongoing
           efforts to address States’ concerns regarding plan reporting requirements.




www.oig.dhs.gov                                 9                                         OIG-12-109
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Recommendations

           We recommend that the Associate Administrator, Federal Insurance and
           Mitigation Administration:

           Recommendation #1:

           Continue ongoing efforts to accomplish a rule change for mitigation plan
           reporting schedule.

           Recommendation #2:

           Proceed with current plans to develop a tool to track identified and
           implemented mitigation actions.

           Management Comments and OIG Analysis

           We received written comments on the draft report from FEMA’s Federal
           Insurance and Mitigation Administration. FEMA agreed with both
           recommendations. A copy of the comments is in appendix B.

           We analyzed FEMA’s comments and agree with the actions FEMA is taking. With
           regard to Recommendation 1, FEMA is taking the necessary preliminary steps to
           engage in rulemaking to change the frequency of plan updates for State
           mitigation plans. This will result in fewer financial and time burdens on the
           states and will allow for linked State and local plans to be on the same reporting
           cycle. We will determine the status of this recommendation once we receive the
           detailed corrective action plan in FEMA’s 90-day letter.

           With regard to Recommendation 2, FEMA has developed and is testing an
           Interim Action Measure Collection Tool for use by FEMA staff to begin to track
           areas where identified mitigation actions have been initiated. The tool was
           deployed in early 2012 to FEMA Regions to begin collecting data. This will allow
           FEMA to track participants’ progress. We will determine the status of this
           recommendation once we receive the detailed corrective action plan in FEMA’s
           90-day letter.




www.oig.dhs.gov                                10                                     OIG-12-109
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   The objectives of our survey were to (1) evaluate the hazard mitigation planning
   program’s efficiency and effectiveness and (2) determine whether a more
   comprehensive audit was warranted. We reviewed agency documents and compared
   program statistics for fiscal years 2007 through 2011.

   Audit fieldwork was conducted in the Washington, DC, and Philadelphia, PA, areas,
   where we interviewed FEMA officials from the Federal Insurance and Mitigation
   Administration; at headquarters; and at Region III. We also conducted telephone
   interviews with regional FEMA officials and State hazard mitigation officers.

   We conducted this performance audit between October 2011 and January 2012
   pursuant to the Inspector General Act of 1978, as amended, and according to generally
   accepted government auditing standards. Those standards require that we plan and
   perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
   basis for our findings and conclusions based upon our audit objectives. We believe that
   the evidence obtained provides a reasonable basis for our findings and conclusions
   based upon our audit objectives.




www.oig.dhs.gov                               11                                     OIG-12-109
                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report

                                                                                        U.s. ikpartmtll l or lI omtt.lld Stc:urlry
                                                                                        W u hl llglOCl, DC lOS18


                                                                                             Homeland
                                                                                             Security
                                                     ~AY   3 1 2011


              MEMORANDUM FOR:               D. Michael Beard
                                            Assistant Inspector General
                                            Office of Emergency Management Oversight

              FROM:                         David J. Kaufman
                                            Director
                                                                  11k---
                                                               / /"
                                            Office of Policy and Program Analysis

              SUBJECT:                      FEMA ' s Response to OIG Draft Report, Survey 0/ Hazard
                                            Mitigation Planning OIG Project No. II-OIO-EMO-FEMA


              The Federal Emergency Management Agency (FEMA) appreciates the opportunity to review and
              respond to the Department of Homeland Security (DHS) Office of inspector General (010) Draft
              Report, Survey 0/ Hazard Mitigarioll Planning. Thc report focused on the strengths and
              weaknesses of the Federal Emergency Management Agency's Hazard Mitigation Planning
              program. The objectives of the survey were to ( I) evaluate the hazard mitigation planning
              program's efficiency and cffcctiveness and (2) dctcnnine whether a morc comprehcnsive audit
              was warranted. Based on the survey. thc draft Report indicated further audit work on the
              program is not warranted at this time.


              Overall Comments
              FEMA appreciatcs the DHS (G's review of FEMA 's Hazard Mitigation Planning program and
              offcrs the following clarifications in the draft Report.

                         •   Page I, 2nd paragraph: "The program is voluntary, but all 50 States have
                             participatcd since its inccption, and the tribal and local community participation
                             accounts for approximately 70% of the Nation's population." Tribal and local
                             community participation currenlly accounts for approximately 70% of the
                             Nation's population. Since 2000, more than 26,000 jurisdictions have dcveloped
                             plans, covering approximately 90% o f the Nation's population.

                         •   Page 3, bullets 1-3: The first bullct on HMGP suggests the total amount of
                             fundi ng (S 1.3 billion) was avail able for planning grants. Howcver, the total
                             amounts identified (S 1.3 billion for HMGP, S270 million for POM and S 120
                             million for FM A) were available for both mitigation projects and plans, and
                             should not be interpreted as the amounts allocated for planning grants alone.




www.oig.dhs.gov                                                 12                                                                   OIG-12-109
                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security




                        •   Page 6, 1" paragraph: " More than 19,000 jurisdictions are represented by plans,
                            covering approximately 70% of the Nation' s population." To be clear, more than
                             19,000 jurisdictions are currently represented by FEMA-approved plans, covering
                            approximately 70% of the Nation's population. Since 2000, more than 26,000
                            jurisdictions have developed plans, covering approximately 90% of the Nation's
                            population.

              Response to R«ommendations

                     R«ommendation #1 : Continue ongoing efforts to accomplish a rule change for
                     mitigation plan reporting schedule.

                     FEMA Response: FEMA agrees with this recommendation. This issue is a top priority
                     for FlMA and we are taking the necessary preliminary steps for FEMA to engage in
                     rulemaking to change the frequency of plan updates for State Mitigation Plans.

                     R«ommendation #2: Proceed with current plans to develop a tool to track identi fied
                     and implemented mitigation actions.

                     FEMA Response: FEMA agrees with this recommendation. FEMA has developed and is
                     testing an Interim Action Measure Collection Tool for use by FEMA staff to begin to
                     track areas where identified mitigation actions have been initiated. The tool was
                     deployed in early 2012 to FEMA Regions to begin collecting data.

              Once again, thank you for the opportunity to comment on the findings and recommendations of
              the OIG Draft Report on Survey of Hazard Mitigation Planning prior to its publication. We look
              forward to working with you on expeditious closure of the recommendations. Please feel free to
              provide any comments/concerns to our Audit Liaison, Ms. Gina Non on, 202-646-4287.




                                                            2




www.oig.dhs.gov                                           13                                                   OIG-12-109
                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix C
   Major Contributors to This Report
   Kaye McTighe, Director
   Paul McPhail, Supervisory Program Analyst
   Stuart Josephs, Acting Audit Manager
   Kimberly Letnaunchyn, Program Analyst
   John Meenan, Program Analyst




www.oig.dhs.gov                                14               OIG-12-109
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix D
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   FEMA Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                 15                         OIG-12-109
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
